                                   SOCIAL SECURITY

MEMORANDUM

Date:   December 17, 2003                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Utility of Older Reinstated Wages from the Earnings Suspense File (A-03-02-22076)



        Attached is a copy of our final report. Our objective was to determine how older
        reinstated wages impact individuals’ earnings records and the amount of benefits paid
        to them.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                          James G. Huse, Jr.

        Attachment

        File Code: EXT A-03-02-22068
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   UTILITY OF OLDER REINSTATED
    WAGES FROM THE EARNINGS
           SUSPENSE FILE

  DECEMBER 2003     A-03-02-22076




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVE

To determine how older reinstated wages impact individuals’ earnings records and the
amount of benefits paid to them.

BACKGROUND

Suspended wages can affect a worker's eligibility for and/or the amount of retirement,
disability, or survivor benefits. Wages can be reinstated from the Earnings Suspense
File (ESF) to an individual’s earnings record once the correct name and Social Security
number is determined. The Social Security Administration (SSA) reinstates these
wages through automated and manual processes. We reviewed the SWEEP
automated process and the item correction manual process since these actions were
more likely to relate to older reinstatements.

RESULTS OF REVIEW

Our review indicated that removing ESF wages 30 years or older would impact
approximately 0.07 percent of the individuals awarded benefits in Calendar Year 1999.
In those cases where a beneficiary was impacted, the reduction in benefits would have
been an average of $4.22 per month. We found the manual processes reinstated
approximately 70 percent of the wages that led to reduced benefits, and the remaining
30 percent involved SWEEP edits. Furthermore, we found that (1) most of the manual
actions lacked sufficient detail to determine whether the wages in the ESF were
necessary before the wage information was posted to the earnings record and (2) the
full impact of the SWEEP edits may be difficult to determine since not all of the
reinstatements were captured in SSA’s management information system. Finally, the
Office of Quality Assurance and Performance Assessment (OQA) has implemented a
new software edit that may increase the usefulness of this older information in the ESF.

CONCLUSIONS AND RECOMMENDATIONS

Removing ESF wages 30 years or older would have reduced monthly payments for very
few of the individuals awarded benefits in Calendar Year 1999. These older wage items
represent 34 percent of the accumulated items in the ESF and 3.5 percent of the
accumulated wages. Although SSA’s systems lacked sufficient detail to determine the
role of ESF in the reinstatements as well as the full extent of SWEEP edits, we do not
believe this information would have altered our overall conclusion on the utility of the
older ESF data. Nonetheless, the Agency's new software edits may increase the
usefulness of the older information in the ESF.




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)             i
To further assist SSA management in determining the role of the W-2 versus the ESF in
posting older wage items, we still believe SSA needs to implement our earlier
recommendation to ensure sufficient information is recorded during the manual
reinstatement process. We also recommend that SSA:

•   Modify the current edit processes so a record of all individuals impacted by SWEEP
    reinstatements is captured in the ESF Reinstates File.

•   Consider removing wages that are 30 years or older from the ESF after OQA
    completes its planned reinstatement efforts since we believe SSA can safely remove
    these wages without hindering the Agency's programs and operations.

AGENCY COMMENTS

SSA agreed with both recommendations. Regarding the SWEEP transactions, SSA
noted that the 2004 SWEEP process will create a unique Earnings Posting Source code
for each item that is reinstated through this process. Regarding the removal of wages
that are 30 years or older, SSA stated it will consider using a 30-year cutoff to remove
wage items from the ESF when the current OQA matching initiative is completed. SSA
will also take into consideration other criteria, including the employer, the composition of
the name and Social Security number, the amount and type of earnings, and the
number of suspense items with the same name and Social Security number.




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)             ii
                                                         Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

 Impact of Older Reinstated Wages on Benefits ...................................................3

 Social Security Administration Processes for Reinstating Older Wages ...............5

 Newly Developed Software .................................................................................10

CONCLUSIONS AND RECOMMENDATIONS.....................................................11


APPENDICES

Appendix A – Prior Audit Work Related to Removal of Earnings Suspense File Items

Appendix B – Scope and Methodology

Appendix C – Sampling Methodology and Results

Appendix D – Impact of Older Reinstated Wages on Benefits

Appendix E – Agency Comments

Appendix F – OIG Contacts and Staff Acknowledgments




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)
                                                                    Acronyms
    CY                  Calendar Year

    EM 2.8              Earnings Modernization 2.8

    ESF                 Earnings Suspense File

    ICOR                Item Correction

    MBR                 Master Beneficiary Record

    MEF                 Master Earnings File

    OQA                 Office of Quality Assurance and Performance Assessment

    OIG                 Office of the Inspector General

    SSA                 Social Security Administration

    SSN                 Social Security Number

    TY                  Tax Year

    W-2                 Wage and Tax Statement




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)
                                                                                                                    Introduction
OBJECTIVE
To determine how older reinstated wages impact individuals’ earnings records and the
amount of benefits paid to them.

BACKGROUND
Title II of the Social Security Act requires that the Social Security Administration (SSA)
maintain records of wage amounts employers pay to individuals. Employers report their
employees’ wages to SSA at the conclusion of each tax year (TY). Wages on those
employer reports containing invalid names and/or Social Security numbers (SSN)
cannot be posted to an individual’s earnings record in SSA's Master Earnings File
(MEF).1 Instead, these wages are placed in the Earnings Suspense File (ESF)—a
repository for unmatched wages.2 Suspended wages can affect a worker's eligibility for
and/or the amount of retirement, disability, or survivor benefits. Suspended wages can
be reinstated from the ESF when they are matched to the correct individual. SSA
reinstates these wages through automated and manual processes.

As of July 2002, the ESF contained approximately 236 million wage items totaling about
$374 billion related to TYs 1937 through 2000 (see Figure 1). In TY 2000 alone,
9.6 million items and $49 billion in wages were posted to the ESF. Of the amounts in
the ESF, approximately 80 million wage items (34 percent) and $13 billion in wages
(3.5 percent) relate to earnings that are 30 years or older.

                                   FIGURE 1: STATUS OF THE EARNINGS SUSPENSE FILE
                                                  (Tax Years 1937-2000)


                                       $50
                                       $45
                                       $40
                     Suspended Wages




                                       $35
                                       $30
                         (Billions)




                                       $25
                                       $20
                                       $15
                                       $10
                                        $5
                                        $0
                                        37

                                              40

                                                   43

                                                        46

                                                             49

                                                                  52

                                                                       55

                                                                            58

                                                                                 61

                                                                                      64

                                                                                           67

                                                                                                70

                                                                                                     73

                                                                                                          76

                                                                                                               79

                                                                                                                    82

                                                                                                                         85

                                                                                                                              88

                                                                                                                                   91

                                                                                                                                        94

                                                                                                                                             97

                                                                                                                                                  00
                                       19

                                             19

                                                  19

                                                       19

                                                            19

                                                                 19

                                                                      19

                                                                           19

                                                                                19

                                                                                     19

                                                                                          19

                                                                                               19

                                                                                                    19

                                                                                                         19

                                                                                                              19

                                                                                                                   19

                                                                                                                        19

                                                                                                                             19

                                                                                                                                  19

                                                                                                                                       19

                                                                                                                                            19

                                                                                                                                                 20




                                                                                           Tax Year



1
 The MEF contains all earnings data reported by employers and self-employed individuals. These data
are used to calculate the Social Security benefits due an individual with an earnings record.
2
  SSA is also required to maintain the wages of self-employed individuals and has a separate ESF for
these submissions. We are not commenting on the self-employment process in this report.


Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)                                                                         1
PRIOR AUDIT WORK

In a prior report, we commented on a study conducted by an SSA contractor to reduce
the size and growth of the ESF.3 The contractor considered various criteria and
alternatives for reducing the size of the ESF, including removing wage items several
years old to keeping all suspense file records. Our report noted that the earnings data
used in the contractor study could have been expanded to provide SSA with a better
understanding of the risks related to record removal. We recommended that SSA
conduct further analysis to ensure any data maintained in the ESF will make a
difference in earnings accuracy in terms of eligibility and/or benefit amount for the wage
earner. We also noted that SSA could safely implement a number of the removal
options offered by the contractor, including removing items in the ESF that were
43 years or older (see Appendix A). This report is intended to assist SSA with this
analysis.

SCOPE AND METHODOLOGY

Our audit included tests to ensure the reliability of the data and a review of the internal
controls. We found the data to be reliable for the purposes of our review, except as
noted within the findings of this report. We discuss our methodology and data reliability
in greater detail in Appendix B. The entity responsible for the maintenance of the ESF
is the Office of Earnings, Enumeration and Administrative Systems under the Deputy
Commissioner for Systems. Our work was conducted at the Office of Audit in
Philadelphia, Pennsylvania, between September 2002 and May 2003. We conducted
our review in accordance with generally accepted government auditing standards.




3
 Management Advisory Report: Recent Efforts to Reduce the Size and Growth of the Social Security
Administration's Earnings Suspense File (A-03-01-30035), May 2002.


Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)                     2
                                                   Results of Review
Our review indicated that removing ESF wages 30 years or older would impact very few
of the individuals awarded benefits in Calendar Year (CY) 1999. In those cases where
a beneficiary was impacted, the reduction in benefits would have been an average of
$4.22 per month. We found the manual processes reinstated approximately 70 percent
of the wages that led to reduced benefits, and the remaining 30 percent involved
automated edits. Furthermore, we found that (1) most of the manual actions lacked
sufficient detail to determine whether the wages in the ESF were necessary before the
wage information was posted to the earnings record and (2) the full impact of the
automated edits may be difficult to determine since not all of the reinstatements4 were
captured in SSA’s management information system. Finally, recent efforts to improve
software edits may increase the usefulness of this older information in the ESF.

IMPACT OF OLDER REINSTATED WAGES ON BENEFITS

We reviewed the earnings records of beneficiaries (1) who were awarded disability or
retirement benefits in CY 1999 and (2) whose earnings history included wages that
were reinstated 30 years or more after they were reported.5 We found that
137 beneficiaries met these criteria and determined that 75 (55 percent) of the
137 beneficiaries had reduced benefits when the reinstated data 30 years or older were
removed from their earnings histories. Based on an extrapolation of our results, we
estimate that 1,500 beneficiaries awarded benefits in CY 1999 would have been
underpaid if the older reinstatement data had not been available in the ESF. These
1,500 beneficiaries represent about 0.07 percent of the approximately 2.3 million
individuals awarded retirement and disability benefits in CY 1999.

We also determined that the 75 beneficiaries impacted by the removal of the older
wages would have experienced a total of $317 in reduced monthly benefits or a
$4.22 reduction in each beneficiary’s monthly payment. Based on an extrapolation of
our results, we estimate the 1,500 beneficiaries would have been underpaid a total of
approximately $76,000 in CY 1999 by the removal of these older reinstatement data
from the ESF (see Appendix C). The remaining 1,240 individuals (45 percent) would
not have been impacted since the benefits they were paid would have been the same
with or without the reinstated information. Furthermore, we did not find any instances
where individuals would have been denied benefits if the reinstated wages were no
longer available.



4
 A reinstatement is an earnings item that has been posted to the MEF after the reported name and/or
SSN has been corrected.
5
 We reviewed one segment of the Master Beneficiary Record (MBR), which represents 1/20th of the
entire file. The MBR consists of information related to a beneficiary’s entitlement to Title II benefits.


Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)                              3
We found the following characteristics among the 75 beneficiaries who would have
experienced reduced benefits:

•   69 beneficiaries (92 percent) were receiving retirement benefits, with the remaining
    6 beneficiaries (8 percent) receiving disability benefits;

•   the average underpayment was $51 a year, which is less than 1 percent of the
    average monthly payment of $789 to these beneficiaries;

•   an average of 2.2 reinstates were recorded per beneficiary, with the number of
    reinstated wages per beneficiary ranging from 1 to 22;

•   suspended wages were maintained in the ESF for an average of 36 years, with the
    number of years in the ESF ranging from 30 to 43 years; and

•   63 percent of the underpayments related to military wages.

Figure 2 shows a distribution of the underpayments for the 75 beneficiaries if the older
reinstated wages were removed from their earnings history. Approximately 88 percent
of the beneficiaries would be underpaid from $1 to $100, annually, with the remaining
12 percent of the beneficiaries experiencing a greater reduction in benefits (see
Appendix D for the underpayments related to each of the 75 beneficiaries).


                     Figure 2: Reduction in Annual Benefits Among
                       the 75 Beneficiaries When Reinstated Data
                      were Removed from the Earnings Suspense
                                           File
                                   12%

                             8%                                        $1 to $25

                                                                       $26 to $50

                                                                       $51 to $100
                                                           55%
                                                                       Over $101
                           25%




We also found that 50 percent of the reinstated wage items were in the ESF 30 to
35 years before being posted to earners’ records. Another 31 percent were in the ESF
for 36 to 40 years, with the remaining 19 percent in the ESF 41 to 43 years before
reinstatement (see Figure 3).



Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)             4
                                              Figure 3: Years Wage Items Were in
                                        Suspense Prior to Reinstatement (75 Beneficiaries)


                                4 1- 4 3 Y e a rs
            Years in Suspense




                                3 6 - 4 0 Y e a rs




                                3 0 - 3 5 Y e a rs



                                                     0   10   20     30     40     50     60      70   80   90

                                                                   Num ber of Reinstated Item s




WAGES IN THE EARNINGS SUSPENSE FILE FOR 43 OR MORE YEARS

As part of this audit, we reviewed the number of beneficiaries who would be underpaid if
wages 43 years and older were removed from the ESF. In an earlier audit, we stated
that SSA could safely remove these wages from the ESF. Among the 75 beneficiaries
in our review impacted by the removal of the older wages, we found 3 cases where
wages were in the ESF for 43 years or more before reinstatement. By extrapolating our
results, we find that these older reinstated wages increased the retirement and disability
benefits paid to an estimated 60 beneficiaries by approximately $3,336, annually (or
$4.63 per beneficiary per month). See Appendix C for more on our estimation
methodology.

SOCIAL SECURITY ADMINISTRATION PROCESSES FOR
REINSTATING OLDER WAGES
We reviewed the reinstated wage items related to the 75 beneficiaries to determine
which processes were more effective in identifying missing wages. We found that
manual processes reinstated approximately 70 percent of wages, whereas the
remaining 30 percent related to automated reinstatements. Nonetheless, most of these
manual actions lacked sufficient detail for us to determine whether the wages in the
ESF were necessary before posting the wage information to the earnings record. In a
prior audit, we recommended SSA include additional details to improve available
management information. Furthermore, the full impact of the automated edits may be
difficult to determine since not all of the reinstatements are captured in SSA’s
management information system.




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)                                   5
REINSTATMENT PROCESSES

SSA reinstates wages through manual and automated processes. The wage items in
our review were reinstated through either of the following processes.

•   SWEEP is an electronic operation that periodically uses SSA’s latest system
    enhancements and validation rules, including the more than 20 routine edits used
    on incoming wages, to remove items from the ESF and reinstate them to wage
    earners’ MEF records.

•   Item Correction (ICOR) allows SSA staff to correct an individual’s earnings record
    through a system called Earnings Modernization 2.8 (EM 2.8). EM 2.8 is a
    computerized process for adjusting an individual’s earnings record thereby helping
    SSA establish and maintain an accurate and complete MEF. This system allows
    SSA employees to add, change, move, or delete an individual’s earnings overnight
    via on-line interactive screens. This is basically a paperless system—with proofs
    and rationale recorded electronically after an initial inspection by an SSA
    employee(s).

Of the 75 beneficiaries whose benefits increased as a result of the reinstated wages, we
found:

•   SWEEP reinstated 30 percent of the dollars that led to benefit increases;

•   ICOR with W-2s or other secondary information reinstated 16 percent of the dollars
    that led to benefit increases; and

•   ICOR with insufficient detail reinstated 54 percent of the dollars that led to benefit
    increases (see Figure 4).


                  Figure 4: Processes Used to Reinstate the
                        Wages of the 75 Beneficaries


                                                              30%




                          54%




                                                           16%

                SWEEP    Item Correction with Detail   Item Correction Without Detail




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)               6
As noted above, approximately 54 percent of all the reinstated wages increasing the
beneficiaries’ payment amounts related to ICOR transactions that lacked sufficient
information to determine whether a W-2 or other evidence was provided as part of the
reinstatement process. As a result, we cannot make a final determination on these
ICOR reinstatements as to whether the older wage data in the ESF were critical in
determining the individual’s ownership of the wages.

Regarding the remaining 46 percent of the reinstated wages under SWEEP and ICOR,
it is likely that, under current procedures, data would not need to be held for 30 years for
the beneficiary to be credited with the wages. Wage items reinstated by SWEEP relate
to an edit that is performed every few years, so the wages that were reinstated by
SWEEP should now be reinstated shortly after being reported to SSA.6 Furthermore,
the ICOR reinstatements related to individuals providing W-2s and/or secondary
evidence did not appear to require the presence of wage data in the ESF, and their
reinstatement may have been an extra step rather than a required step to update the
beneficiary's earnings history. It is also possible that the presence of the wage item in
the ESF, in addition to the secondary evidence, was relevant to the final reinstatement
of wages.

Moreover, the accumulation of suspended wages may decrease over time as wage
earners review their Social Security statements and request that their missing wages be
reinstated. This should lessen the number of older suspended items available for
reinstatement. SSA mails Social Security statements to individuals who have earnings
and are age 25 or older. In FY 2002, SSA mailed about 138 million such statements. If
an individual whose wages are in suspense contacts SSA about missing earnings,
these amounts are either reinstated from the ESF to the MEF or added as new earnings
to the MEF. These wage problems would most likely be resolved through ICOR and
relate to circumstances where the individual is more likely to have available wage
evidence.

REINSTATEMENT DETAILS ON SOCIAL SECURITY ADMINISTRATION SYSTEMS

SSA’s systems did not capture all of the reinstatements, nor did it collect sufficient detail
on reinstatements that were present in the systems, which limited our ability to
determine the full impact of the older reinstatements and the role of the ESF in resolving
these missing wages. SSA’s Reinstates File did not capture all of the SWEEP
transactions, whereas more than two-thirds of the ICOR transactions lacked sufficient
detail to determine whether a W-2 or other secondary evidence was provided as part of
the reinstatement process.




6
 We may not have captured all of the SWEEP transactions in this audit. See our comments in the next
section.


Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)                        7
SWEEP Transactions

While we were able to use the ESF Reinstates File to identify relevant reinstatements in
our review, this File was not designed to capture all reinstated items. The Reinstates
File captures the latest entry in a series of reinstatements so this information can be
used in resolving similar problems in the future. SSA staff explained to us that the
Reinstates File is more of a “processing file” than a management information system.
In our review, we used the reinstatements in the File as an audit trail and later captured
most of the data missing from this File by conducting a full review of each individual’s
earnings history.

We also learned that the ESF Reinstates File does not provide a complete listing of all
individuals with wages reinstated under the SWEEP process since the system was
designed to post some of the reinstated transactions directly to the MEF without leaving
a record on the Reinstates File. When we asked why this happens, we were told that
some SWEEP reinstatements occur because a Numident record may have been
updated with a new or corrected name. If SWEEP can now locate the owner of the
earnings because of this new information, the posting is treated as a normal wage
posting and no record needs to be maintained in the Reinstates File since this
information will not be needed to resolve similar problems in the future.

At the exit conference, SSA noted that approximately 80 percent of the SWEEP
transactions bypassed the Reinstates File because of these circumstances. SSA
maintains summary reports on the SWEEP process showing how many items were
reinstated under SWEEP as well as the types of matches performed. For example, the
report notes if an exact match occurred or only one letter in a name was off. However,
more specific details, such as the identity of the earning account impacted by the
reinstated wages, are not available in such reports. As a result, we could not verify the
information provided by the Agency, and we cannot be sure we accounted for all of the
individuals with older wages reinstated under the SWEEP process. While we do not
believe these missing transactions, if we could verify them, would alter our overall
conclusion, the extra transactions may have increased our earlier estimate of
beneficiaries with increased retirement or disability benefits resulting from the older
reinstatement.7




7
  When we attempted to account for these missing SWEEP transactions, with the assumption that these
extra SWEEP transactions had the same characteristics as those in our review, we determined that while
the number of individuals with underpayments would increase, the average monthly underpayments per
beneficiary would decrease. This is due to the fact that our review found the average underpayment
related to SWEEP reinstatements was smaller than the average underpayment related to ICOR
reinstatements.


Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)                       8
Item Corrections

Information in SSA’s EM 2.8 system did not adequately document the evidence
provided by an individual that later led to reinstated wages. As a result, for the
54 percent of wages reinstated through the ICOR process, we could not determine
whether (1) a W-2 or other secondary evidence was provided or (2) the ESF was the
primary source of wage information. For example, we did find EM 2.8 transactions
where the “Basis for Change” field noted a W-2 was provided. We also found some
evidence in the remarks section of the screen. However, most of the EM 2.8
transaction screens did not contain the evidence used to reinstate the wages.

In a prior audit,8 we found the EM 2.8 management controls were inadequate to ensure
the accuracy and integrity of all transactions processed. We recommended that SSA
use the EM 2.8 documentation and development screens for ESF reinstatements.
SSA disagreed with our recommendation and stated its procedures to move the
reinstated item to a separate reinstatement file9 provide adequate documentation of the
transaction. However, as we have learned in this review, the lack of such detail can
hinder SSA’s ability to determine the value of ESF information in identifying missing
wages.

Manual Transactions Since Our Previous Audit

We reviewed the EM 2.8 transactions related to all 137 beneficiaries in our audit before
and after the release of our 1999 audit report to determine whether documentation had
improved. We determined that, the proportion of EM 2.8 transactions with adequate
evidence decreased from 28 percent before 1999 to 26 percent in 1999. After 1999, the
rate fell to 18 percent. Hence, we found no evidence in this review that the amount of
detail in the EM 2.8 system has improved since our 1999 audit (see Figure 5).




8
 Management Controls in Place for Earnings Modernization 2.8 Transactions Processed at Field Offices
and Teleservice Centers (A-03-97-31001), September 1999.
9
 The ESF Reinstates contains the most recent reinstated earnings items with details on the name and
SSN reported to SSA as well as the corrected name and SSN.


Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)                         9
                  Figure 5: Summary of Enumeration Modernization 2.8
                      Transactions With Supporting Documentation
               45
               40
               35
               30
               25
               20
               15
               10
                 5
                 0
                      Prior to 1999         1999            After 1999

                       Documented      No Documentation Provided



NEWLY DEVELOPED SOFTWARE

SSA’s Office of Quality Assurance and Performance Assessment (OQA) is modifying its
edits to locate the owners of suspended wages. Whereas previous edits used only the
name and SSN of the suspended wage, OQA stated the new processes would use
information stored on the earnings and benefit records. As a result, in addition to
matching names and SSNs, the processes will use employment history and earnings
patterns to help identify the number holder related to the suspended items. OQA also
noted that the new processes should also be able to resolve some of the millions of
wage items reported with a "zero" SSN, which have proven to be the most difficult items
to correct. OQA has estimated that at least 30 million items would be removed from the
suspense file and credited to the records of individual workers. In addition, OQA
estimates that the reinstatement of wages held in the ESF for 40 or more years could
increase benefit payments by $50 million. However, the actual impact of these older
reinstated wages will not be known until this process is complete.

SSA recently reported that it has already used a variation of the processes as part of its
recent SWEEP operation. SSA staff stated that the operation reinstated an additional
600,000 items in the fall 2002, and another 800,000 this past summer. The final OQA
software was being validated in the spring 2003 before being run against earnings
records.




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)          10
                                              Conclusions and
                                           Recommendations
Removing ESF wages 30 years or older would have impacted very few of the
individuals awarded benefits in CY 1999. These older wage items represent 34 percent
of the accumulated items in the ESF and 3.5 percent of the accumulated wages.
Although SSA’s systems lacked sufficient detail to determine the role of ESF in the
reinstatements as well as the full extent of SWEEP edits, we do not believe this
information would have altered our overall conclusion on the utility of the older ESF
data. Nonetheless, the Agency's new software edits may increase the usefulness of the
older information in the ESF.

To further assist SSA management in determining the role of the W-2 versus the ESF
in posting older wage items, we still believe SSA needs to implement our earlier
recommendation to ensure sufficient information is recorded in the EM 2.8. We also
recommend that SSA:

1. Modify the current edit processes so a record of all individuals impacted by SWEEP
   reinstatements is captured in the ESF Reinstates File.

2. Consider removing wages 30 years or older from the ESF after OQA completes its
   planned reinstatement efforts since we believe SSA can safely remove these wages
   without hindering the Agency's programs and operations.

AGENCY COMMENTS

SSA agreed with both recommendations. Regarding the SWEEP transactions, SSA
noted that the 2004 SWEEP process will create a unique Earnings Posting Source code
for each item that is reinstated through this process. Regarding the removal of wages
that are 30 years or older, SSA stated it will consider using a 30-year cutoff to remove
wage items from the ESF when the current OQA matching initiative is completed. SSA
will also take into consideration other criteria, including the employer, the composition of
the name and SSN, the amount and type of earnings, and the number of suspense
items with the same name and SSN.




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)            11
                                       Appendices




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)
                                                                           Appendix A
Prior Audit Work Related to Removal of
Earnings Suspense File Items
In 1999, the Social Security Administration (SSA) hired a contractor to determine
whether SSA should modify its existing practices in managing the Earnings Suspense
File (ESF) to follow sound business and accounting practices and more properly reflect
the Agency’s activities regarding unidentified earnings. Specifically, SSA’s objectives
for the contractor’s review were to

•   assess current and identify alternative approaches for managing ESF;

•   recommend record removal criteria that could be applied to the ESF;

•   recommend ways to improve the integrity of the data maintained in the ESF;

•   recommend approaches to administer the ESF in a more cost-effective way;

•   determine the appropriate presentation of the ESF in SSA’s records and accounting
    systems; and

•   recommend ways to treat ESF items in reports to the public.

The contractor stated it (1) analyzed processes or receiving and matching earnings
items; (2) assessed alternatives for removing ESF data; and (3) reviewed ways of
reporting ESF information to the public.

RECORD REMOVAL ALTERNATIVES

The contractor provided SSA management with seven alternatives for reducing the
growth and size of the ESF. These alternatives ranged from an aggressive approach
that would eliminate all ESF items older than 3 years, 3 months and 15 days to a
conservative approach that would basically leave the ESF untouched. These
alternatives were ranked using four objectives set by the contractor: (1) improved
accuracy of earnings records; (2) minimize costs; (3) reduce suspense file size; and
(4) reduce suspense file growth. The contractor's study indicates that earnings
accuracy will decline, and administrative/program costs will increase as SSA moves
from the conservative alternatives toward the more aggressive alternatives. However,
the more aggressive alternatives will reduce the overall size of the ESF. The contractor
did not quantify the potential costs related to the alternatives. In addition, the data used
in the study, as well as the associated analysis, could have been expanded to provide
SSA with a better understanding of the risks related to record removal.




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)           A-1
Our May 2002 report, Management Advisory Report: Recent Efforts to Reduce the Size
and Growth of the Social Security Administration's Earnings Suspense File
(A-03-01-30035), recommended that SSA limit its removal activities to the following
conservative alternatives until more is known about the costs and impact of record
removal. We stated SSA could safely implement the following options without hindering
its programs and operations:

•   remove W-2 records more than 43 years old;
•   remove W-2 records more than 50 years old;
•   remove suspense file records that have been held for 75 years; or
•   hold all suspense file records.




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)    A-2
                                                                                      Appendix B
Scope and Methodology
To meet our objective, we:

•   Reviewed pertinent laws and regulations, as well as prior audits and reviews, related
    to the Earnings Suspense File (ESF) and ESF Reinstates File.

•   Interviewed staff and obtained relevant documents from the Office of Earnings,
    Enumeration and Administrative Systems and the Office of Quality Assurance and
    Performance Assessment staff concerning the ESF.

•   Reviewed the full population of beneficiaries from one segment1 of the Master
    Beneficiary Record (MBR) who (1) were approved to receive disability or retirement
    benefits in Calendar Year (CY) 1999 and (2) had earnings reinstated through the
    SWEEP and/or item correction (ICOR) process at least 30 years after they were
    initially posted. During our planning phase, we reviewed several reinstatement
    processes and determined that the SWEEP and ICOR processes were reinstating
    significant numbers of older wage items.2 By matching relevant information from the
    Reinstates File with the MBR, we identified 1,509 cases where SWEEP and ICOR
    reinstatements were present on the earnings history of individuals approved to
    receive benefits in CY 1999. From these 1,509 cases, we selected the 137 cases
    with reinstatements 30 years or older for our review.

•   We recomputed the benefits related to all 137 cases to determine whether the
    primary beneficiary would have lost eligibility or current and future benefit dollars.
    We extrapolated our findings back to the 20 segments to determine the number of
    SSA beneficiaries that would be underpaid and how much they would have been
    overpaid for those with reinstatements after 30 years. See Appendix C.

•   We reviewed all of the wages reinstated through ICOR within the Earnings
    Modernization 2.8 to determine whether a Wage and Tax Statement (Form W-2) or
    other secondary evidence was presented to reinstate wages.

•   We relied primarily on the MBR and ESF Reinstates File to complete our review, and
    determined that the MBR data used in the report is sufficiently reliable given the
    audit objective and intended use of the data, and should not lead to incorrect or

1
  A segment represents one-twentieth of the MBR. The MBR is separated into 20 segments based on the
last 2 digits of the Social Security number. Since these last digits are not specific to a region or period of
issuance, each segment should be representative of the entire file.
2
  We analyzed a sample of reinstate transactions from the ESF to determine which processes met the
following criteria: (1) the activity must be designed to reinstate older items and (2) the reinstatement
activity should be a current, ongoing edit. We determined ICOR and SWEEP transactions met these
criteria.


Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)                             B-1
   unintentional conclusions. As far as the ESF Reinstates File, we believe the data
   were sufficiently reliable, except for the following limitations, which we have
   disclosed within the body of the report as well as its potential impact on our findings.
   We performed compensating procedures for some of these weaknesses, but we do
   not believe we have the entire population of reinstated wages. First, the Reinstates
   File is incomplete in that it only records the latest reinstatement in a series of
   reinstatements. We were able to compensate for this missing information by fully
   reviewing the earnings history for each beneficiary in question. Even though earlier
   transactions were overwritten, the File is designed so that at least one SWEEP or
   ICOR transaction is in the Reinstates File so one can obtain the overwritten
   transactions. We are also aware of one additional problem with the Reinstates File–
   it may have failed to capture most of the SWEEP transactions. Toward the end of
   the audit, Social Security Administration staff told us that approximately 80 percent
   of the wage items reinstated under SWEEP are posted directly to the Master
   Earnings File and will not leave a record in the Reinstates File. However, we were
   unable to verify this new SWEEP information. Nonetheless, we have taken this
   information into consideration when reporting our findings.




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)          B-2
                                                                           Appendix C
Sampling Methodology and Results
We reviewed the full population of beneficiaries from a representative one-twentieth of
the Master Beneficiary Record (MBR) who (1) were approved to receive disability or
retirement benefits in Calendar Year (CY) 1999 and (2) had earnings reinstated through
the SWEEP and/or item correction processes at least 30 years after they were initially
posted (see Appendix B). In our review, we identified and reviewed 137 cases with
reinstated wages that were 30 years or older. Within these 137 cases, we also
reviewed the 6 instances with reinstated wages that were 43 years and older.


                           Sample Results and Estimation
 Sample Size (1 Segment of MBR)                                                        137
 Estimated Population Size (20 Segments of MBR)                                       2740
                  CY 1999 Population – 30 Year and Greater Attribute
 Beneficiaries underpaid when wages 30 years or older were removed from                 75
 the their earnings history
 Estimated disabled and/or retired beneficiaries who were underpaid when              1,500
 wages 30 years or older were removed from their earnings history
 (Beneficiaries in 1 segment x 20 segments)
             CY 1999 Population – 30 Year and Greater Dollar Estimation
 Monthly underpayment to beneficiaries when wages 30 years or older                $316.70
 were removed from their earnings history
 Estimated annual underpayment to beneficiaries when wages 30 years or            $3,800.40
 older were removed from their earnings history (monthly underpayment x
 12 months)
 Estimated annual underpayments to disabled and/or retired beneficiaries         $76,008.00
 when wages 30 years or older were removed from their earnings history
 (annual underpayment in 1 segment x 20 segments)
                  CY 1999 Population – 43 Year and Greater Attribute
 Beneficiaries underpaid when wages 43 years or older were removed from                  3
 the their earnings history
 Estimated disabled and/or retired beneficiaries who were underpaid when                60
 wages 43 years or older were removed from their earnings history
 (Beneficiaries in 1 segment x 20 segments)
             CY 1999 Population – 43 Year and Greater Dollar Estimation
 Monthly underpayment to beneficiaries when wages 43 years or older                 $13.90
 were removed from their earnings history
 Estimated annual underpayment to beneficiaries when wages 43 years or             $166.80
 older were removed from their earnings history (monthly underpayment x
 12 months)
 Estimated annual underpayments to disabled and/or retired beneficiaries          $3,336.00
 when wages 43 years or older were removed from their earnings history
 (annual underpayment in 1 segment x 20 segments)



Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)
                                                                           Appendix D
Impact of Older Reinstated Wages on Benefits
We reviewed the earnings records of beneficiaries who were (1) awarded disability or
retirement benefits in Calendar Year 1999 and (2) whose earnings history included
wages that were reinstated 30 years or more after they were reported. We determined
that the 75 beneficiaries impacted by the removal of the older wages would have
experienced a total of $317 in reduced monthly benefits, or a $4.22 reduction in each
beneficiary’s monthly payment. The table below shows a distribution of the
underpayments for the 75 beneficiaries if the older reinstated wages were removed from
their earnings history.

                        Reduction in Monthly            Number of
                             Benefits                  Beneficiaries
                                 $77.30                       1
                                 $31.50                       1
                                 $14.10                       1
                                 $13.40                       1
                                 $11.10                       1
                                 $11.00                       1
                                 $10.20                       1
                                  $9.60                       1
                                  $9.50                       1
                                  $6.80                       1
                                  $6.50                       1
                                  $6.10                       1
                                  $5.60                       1
                                  $5.20                       1
                                  $4.60                       1
                                  $4.00                       1
                                  $3.90                       2
                                  $3.70                       1
                                  $3.60                       1
                                  $3.50                       1
                                  $3.40                       1
                                  $3.30                       2
                                  $2.90                       2
                                  $2.80                       2
                                  $2.60                       2
                                  $2.50                       2
                                  $2.40                       1
                                  $2.20                       1
                                  $2.00                       1
                                  $1.90                       1
                                  $1.80                       1
                                  $1.60                       2
                                  $1.40                       2
                                  $1.30                       5
                                  $1.20                       3


Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)     D-1
                        Reduction in Monthly            Number of
                             Benefits                  Beneficiaries
                                  $1.00                      3
                                  $0.80                      2
                                  $0.70                      2
                                  $0.60                      6
                                  $0.50                      2
                                  $0.40                      3
                                  $0.30                      4
                                  $0.20                      2
                                  $0.10                      2
                             Average = $4.22                 75




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)   D-2
                                                                           Appendix E
Agency Comments




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)
                                         SOCIAL SECURITY
MEMORANDUM                                                                             32234-24-954


Date:       December 2, 2003                                                     Refer To: S1J-3

To:         James G. Huse, Jr.
            Inspector General

From:       Larry W. Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, “Utility of Older Reinstated Wages
            from the Earnings Suspense File” (A-03-02-22076)--INFORMATION


           We appreciate OIG's efforts in conducting this follow-up review. Our comments on the
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Janet Carbonara at extension 53568.

           Attachment:
           SSA Response




           Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)             E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “UTILITY OF OLDER REINSTATED WAGES FROM THE EARNINGS
SUSPENSE FILE” A-03-02-22076

We appreciate the opportunity to comment on the draft report. The Agency has, and continues to
pursue, activities that would remove items from the Earnings Suspense File (ESF) and promote
prevention efforts.

We will conduct further analysis to determine if any action is necessary to ensure that sufficient
information is recorded in the Earnings Modernization 2.8, Item Correction (ICOR) as noted on
page 9 of the report.

Below are our comments to the recommendations.

Recommendation 1

Modify the current edit processes so a record of all individuals impacted by SWEEP
reinstatements is captured in the ESF Reinstate File.

Comment

We agree. As previously shared with OIG during the audit and at the exit conference, the ESF
Reinstate File was not intended to be a reinstate audit file. The purpose of the ESF Reinstate File
is to collect data so that if subsequent W-2 data is received where the Social Security number and
name had been reported and previously reinstated, the subsequent W-2 data would not be placed
on the ESF. Our name matching processes also utilize the ESF Reinstate File for similar
purposes. When reinstate items are posted to the Master Earnings File (MEF), the Earnings
Posting Source code is available to identify the fact and period where the earnings item was
reinstated from the ESF. SSA routinely reviews and makes appropriate enhancements to the
matching process

We also shared with the auditors that beginning with the 2004 SWEEP process, the MEF will
capture a unique Earnings Posting Source code for each item that is reinstated by the SWEEP
process. This source code will allow users to quickly identify MEF postings that resulted from
the SWEEP process. This covers the intent of the OIG’s recommendation.
Recommendation 2

Consider removing wages 30 years or older from the ESF after the Office of Quality Assurance
and Performance Assessment (OQAPA) completes its planned reinstatement efforts since OIG
believes those items can be safely removed without hindering SSA’s programs and operations.

Comment

We agree to consider using a 30 year cutoff to remove wage items from the suspense file when
the current OQA matching initiative is completed. However, we expect that if an age criteria is




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)                  E-2
found that clearly distinguishes suspense items to be retained and or removed from the file (and
if removal is still an option), it will not necessarily be "30 years or older."

The matching initiative currently underway may very well find good matches to an earnings
record for suspense items for years well beyond the proposed 30 year cutoff period. At the
conclusion of the project, much more information will be available regarding items not matched
in the course of the project that have potential for being matched to an earnings record in the
future.

The earnings year will be one of a group of factors considered in looking for improvements in
how the suspense file is managed. Among the other factors that influence the potential for being
matched to an earnings record and have an effect on benefits are the identity of the employer, the
composition of the name and account number, the amount and type of earnings, and the number
of suspense items with the same name and account number information.

Section 205(c)(2)(A) of the Social Security Act specifies that "the Commissioner of Social
Security shall establish and maintain records of the amounts of wages paid to, and the amounts
of self-employment income derived by, each individual and of the periods in which such wages
were paid and of the periods in which such income was derived." Accurate and complete
earnings records are fundamental to high quality administration of Title II programs.
Accordingly, any decision to change the way suspense records are maintained will be very
carefully reached.

While the OQA matching project progresses, we will continue the reduction of suspense items
that results from performing the current automated routines for correcting errors on information
received from earnings report submitters. We also will continue to work with the employer
community in improving wage reporting and we are pursuing related efforts with the Internal
Revenue Service.




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)                 E-3
                                                                           Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, (215) 597-4080

Staff Acknowledgments
In addition to those named above:

   Mary Dougherty, Senior Auditor

   Richard Devers, Senior Auditor

   Kevin Joyce, IT Specialist


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-03-02-22076.




Utility of Earnings Wage Records in the Earnings Suspense File (A-03-02-22076)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
